                              NCUA 2009
                      FINANCIAL STATEMENT AUDIT
                                 FOR

                    TEMPORARY CORPORATE CREDIT
                      UNION STABILIZATION FUND




                  For the year ended December 31, 2009

        Audited Financial Statements             Audit Report Number

Temporary Corporate Credit Union                         OIG-10-13
Stabilization Fund




                               July 22, 2010




                            William A. DeSarno
                            Inspector General
                         EXECUTIVE SUMMARY
PURPOSE AND SCOPE              The National Credit Union Administration (NCUA)
                               Office of Inspector General contracted with the
independent public accounting firm of KPMG LLP to perform the financial
statement audits of the NCUA Operating Fund, the Share Insurance Fund, the
Central Liquidity Facility, the Community Development Revolving Loan Fund, and
the Temporary Corporate Credit Union Stabilization Fund for the year ended
December 31, 2009. The reports for the first four funds were issued on June 11,
2010 and can be found on the NCUA OIG’s website. This report is issued on the
NCUA Temporary Corporate Credit Union Stabilization Fund.

The purpose of the audit is to express an opinion on whether the financial
statements are fairly presented. The independent firm also reviewed the internal
control structure and evaluated compliance with laws and regulations, as part of
their audit.

The audit was performed in accordance with generally accepted auditing
standards and Government Auditing Standards issued by the Comptroller
General of the United States. The Inspector General contracted with KPMG LLP
in June 2009 to perform the financial statement audits mentioned above. The
contract was for 2009, with options for 2010 and 2011. The Inspector General
was the contracting officer for this contract.

AUDIT RESULTS        KPMG LLP expressed an unqualified opinion, stating that
                     the financial statements present fairly, in all material
respects, the financial position of the NCUA Temporary Corporate Credit Union
Stabilization Fund at December 31, 2009, and the results of operations for the
year then ended.

Although KPMG LLP did not express an overall opinion of the Funds’ compliance
with laws and regulations, their testing of compliance did not disclose any
significant deviations.
National Credit Union Administration
Temporary Corporate Credit Union
Stabilization Fund
Financial Statements from May 20, 2009 (Inception) to December 31, 2009, 
and Independent Auditors’ Reports
NATIONAL CREDIT UNION ADMINISTRATION
TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND

TABLE OF CONTENTS


                                                               Page

INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS            1

FINANCIAL STATEMENTS AS OF DECEMBER 31, 2009 AND
FROM MAY 20, 2009 (INCEPTION) TO DECEMBER 31, 2009:

 Balance Sheet                                                  2

 Statement of Net Cost                                          3

 Statement of Changes in Net Position                           4

 Statement of Budgetary Resources                               5

 Notes to the Financial Statements                             6-13


INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL
OVER FINANCIAL REPORTING


INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND OTHER MATTERS
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                                         Independent Auditors’ Report


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the accompanying balance sheet of the National Credit Union Administration Temporary
Corporate Credit Union Stabilization Fund (TCCUSF) as of December 31, 2009, and the related statements
of net cost, and changes in net position, and statement of budgetary resources (hereinafter referred to as
“financial statements”) for the period from May 20, 2009 (inception) to December 31, 2009. These
financial statements are the responsibility of the TCCUSF’s management. Our responsibility is to express
an opinion on these financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement. An audit includes consideration of internal
control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the TCCUSF’s
internal control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audit provides a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the National Credit Union Administration Temporary Corporate Credit Union
Stabilization Fund as of December 31, 2009, and its net costs, changes in net position, and budgetary
resources for the period from May 20, 2009 (inception) to December 31, 2009 in conformity with U.S.
generally accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our reports dated July 21, 2010,
on our consideration of the TCCUSF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, and contracts and other matters. The purpose of
those reports is to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in accordance
with Government Auditing Standards and should be read in conjunction with this report in assessing the
results of our audits.




July 21, 2010
                                                                      1
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
 


NATIONAL CREDIT UNION ADMINISTRATION
TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND

BALANCE SHEET
As of December 31, 2009
(Dollars in thousands)

ASSETS

INTRAGOVERNMENTAL
  Fund Balance with Treasury                                             $         -
  Investments, Net - U.S. Treasury securities (Note 2)                         343,183
  Account Receivable - Due from the National
   Credit Union Share Insurance Fund (Note 3)                                   21,351
Total Intragovernmental Assets                                                 364,534

PUBLIC
  Accounts Receivable - Special Premium Assessment (Note 3)                      5,950
  Accounts Receivable - TCCULGP (Note 3)                                         1,329
Total public assets                                                              7,279
TOTAL ASSETS                                                             $     371,813

LIABILITIES

INTRAGOVERNMENTAL
  Debt - Borrowings from U.S. Treasury (Notes 4 & 9)                     $   1,000,000
  Other - Accrued Interest Payable to U.S. Treasury (Note 4)                     2,589
Total Intragovernmental Liabilities                                          1,002,589

PUBLIC
  Other - Insurance and Guarantee Program Liabilities (Note 5)               6,365,500
Total Public Liabilities                                                     6,365,500
TOTAL LIABILITIES                                                            7,368,089
Commitments and Contingencies
NET POSITION

    Cumulative Result of Operations                                          (6,996,276)
    Total net position                                                       (6,996,276)

TOTAL LIABILITIES AND NET POSITION                                       $     371,813

The accompanying notes are an integral part of these financial statements.




                                                   2 
 


NATIONAL CREDIT UNION ADMINISTRATION
TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND

STATEMENT OF NET COST
From May 20, 2009 (Inception) to December 31, 2009
(Dollars in thousands)




GROSS COSTS
Interest Expense on Borrowings (Note 4)                                  $       2,589
Insurance and Guarantee Program Liabilities (Note 5)                         6,365,500
Loss on Investment (Notes 2 & 6)                                             1,000,000
    Total Gross Costs                                                        7,368,089

LESS EARNED REVENUES
Special Premium Assessment (Notes 3 & 6)                                     (337,301)
Fee Revenue (Note 6)                                                          (34,504)
Interest Revenue - Investments                                                     (8)
    Total Earned Revenues                                                    (371,813)

TOTAL NET COST OF OPERATIONS                                             $   6,996,276



The accompanying notes are an integral part of these financial statements.




                                                   3 
 


NATIONAL CREDIT UNION ADMINISTRATION
TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND

STATEMENT OF CHANGES IN NET POSITION
From May 20, 2009 (Inception) to December 31, 2009
(Dollars in thousands)




CUMULATIVE RESULTS OF OPERATIONS

Beginning Balances                                              $            -

Net Cost of Operations                                                (6,996,276)
      Net Change                                                      (6,996,276)
CUMULATIVE RESULTS OF OPERATIONS                                      (6,996,276)

NET POSITION                                                    $     (6,996,276)



The accompanying notes are an integral part of these financial statements.




                                                    4 
 


NATIONAL CREDIT UNION ADMINISTRATION
TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND

STATEMENT OF BUDGETARY RESOURCES
From May 20, 2009 (Inception) to December 31, 2009
(Dollars in thousands)



BUDGETARY RESOURCES (Notes 8 & 10)
Unobligated Balance, May 20, 2009                                        $         -
Budget Authority
 Borrowing Authority (Notes 7 & 9)                                           6,000,000
 Spending Authority from Offsetting Collections
   Collected                                                                   343,183
   Change in Receivables from Federal Sources                                   21,351
TOTAL BUDGETARY RESOURCES                                                $   6,364,534

STATUS OF BUDGETARY RESOURCES
Obligations Incurred - Reimbursable                                      $   1,002,589
Unobligated Balance - Exempt from Apportionment                              5,361,945
TOTAL STATUS OF BUDGETARY RESOURCES                                      $   6,364,534

CHANGE IN OBLIGATED BALANCES
Obligated Balance, May 20, 2009                                          $          -
Obligations Incurred                                                          1,002,589
Gross Outlays                                                                (1,000,000)
OBLIGATED BALANCES, NET, END OF PERIOD                                   $       2,589

NET OUTLAYS
Gross Outlays                                                            $   1,000,000
Offsetting Collections
  Interest on Federal Securities                                                    (8)
  Non-Federal Sources                                                         (343,175)
TOTAL NET OUTLAYS                                                        $     656,817



The accompanying notes are an integral part of these financial statements.




                                                    5 
 


NATIONAL CREDIT UNION ADMINISTRATION
TEMPORARY CORPORATE CREDIT UNION STABILIZATION FUND

NOTES TO FINANCIAL STATEMENTS
FROM MAY 20, 2009 (INCEPTION) TO DECEMBER 31, 2009


1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

    Reporting Entity

    The Temporary Corporate Credit Union Stabilization Fund (TCCUSF) was created by Public
    Law 111-22, Helping Families Save Their Homes Act of 2009, enacted May 20, 2009. The fund was
    established as a revolving fund in the Treasury of the United States under the management of the
    Board of Directors of the National Credit Union Administration (NCUA). The purposes of the
    TCCUSF are to accrue the losses of the corporate credit union system, and over time, to assess the
    credit union system for the recovery of such losses. Recovery of losses cannot be assessed to credit
    unions before funds are advanced to pay such losses; instead, funds to pay losses are provided
    through borrowings from the U.S. Treasury.

    The TCCUSF may make expenditures only in connection with the conservatorship, liquidation or
    threatened conservatorship or liquidation of a corporate credit union. The governing legislation
    specifies that the fund terminates in 2016. The credit union system will be assessed for recovery of
    such losses during the life of the TCCUSF.

    On June 18, 2009, the NCUA Board approved actions to legally obligate the TCCUSF for the costs of
    stabilizing the corporate system (Corporate Stabilization Program). As a result, the status holder of
    the $1.0 billion Capital Note from U.S. Central Federal Credit Union (USC) was legally transferred to
    the TCCUSF. The Board also approved to legally obligate the TCCUSF for the liability arising from
    the Temporary Corporate Credit Union Share Guarantee Program (TCCUSGP) and the Temporary
    Corporate Credit Union Liquidity Guarantee Program (TCCULGP).

    Basis of Presentation

    The TCCUSF’s financial statements have been prepared from its accounting records in accordance
    with Federal Accounting Standards Advisory Board (FASAB) standards. FASAB is recognized by
    the American Institute of Certified Public Accountants as the official accounting standards-setting
    body of the U.S. Government. The format of the financial statements and footnotes is in accordance
    with the form and content guidance provided in Office of Management and Budget (OMB) Circular
    A-136, Financial Reporting Requirements, revised June 10, 2009.

    Basis of Accounting

    The financial statements are presented in accordance with the accrual basis of accounting. As such,
    the TCCUSF recognizes income when earned and expenses when incurred. The TCCUSF recognizes
    loans upon issuance and related repayments when received. The TCCUSF investment transactions
    are recognized on trade date. The TCCUSF recognizes borrowings when received and repayments
    when made. In addition, the TCCUSF recognizes interest on loans, interest on investments, and
    revenue from special premium assessments when earned and recognizes interest on borrowings and
    expenses when incurred.




                                                    6 
 


    Use of Estimates

    The preparation of consolidated financial statements in conformity with accounting principles
    generally accepted in the United States of America requires management to make estimates and
    assumptions that affect the reported amounts of assets and liabilities, disclosure of contingent assets
    and liabilities at the date of the financial statements, and the amounts of revenues and expenses
    reported during that period. Actual results could differ from estimates. Significant items subject to
    those estimates and assumptions include reserves for guarantee programs. The current economic
    environment has increased the degree of uncertainty inherent in those estimates and assumptions.

    Budgetary Accounting

    The TCCUSF, in its accounting structure, reflects both accrual and budgetary accounting transactions.
    Under the accrual method of accounting, revenues are recognized when earned and expenses are
    recognized when incurred, without regard to the actual collection or payment of cash. Federal
    budgetary accounting recognizes the obligation of appropriations, borrowing authorities, and other
    funds upon the establishment of a properly documented legal liability, which may be different from
    the recording of an accrual-based transaction. The recognition of budgetary accounting transactions
    is essential for compliance with legal controls over the use of Federal funds and compliance with
    budgetary laws.

    NCUA, including the TCCUSF, is exempt from requirements under the Federal Credit Reform Act of
    1990 (2 U.S.C. §661e(a)(1)).

    Net Position and Accumulated Deficit

    The TCCUSF recorded an accumulated deficit in its net position primarily due to the reserve for
    guarantees under the Corporate Stabilization Program.

    As allowed under TCCUSF’s enabling legislation, and incorporated into the Federal Credit Union Act
    (FCU Act) as §217(g), the financial conditions of the fund may reflect a deficit.

    Fund Balance with Treasury

    Fund Balance with Treasury (FBWT) is the aggregate amount of the TCCUSF’s accounts with the
    U.S. Government’s central accounts from which the TCCUSF is authorized to make expenditures and
    pay liabilities. The entire FBWT is a revolving fund type.

    During 2009, the FBWT account was increased by receipts from borrowing from the U.S. Treasury,
    maturing investments in U.S. securities, special premium assessments, and fee income. The FBWT
    account was decreased by purchases of U.S. securities and amounts expended in support of the
    Corporate Stabilization Program. All cash balances in FBWT are invested overnight in non-
    marketable U.S. Treasury securities as managed with the Bureau of the Public Debt. As of December
    31, 2009, there were no un-reconciled differences between U.S. Treasury records and balances
    reported on the TCCUSF’s general ledger.

    Investments

    Investments represent investments in U.S. Treasury securities purchased and reported at par value
    which are invested in daily overnight securities and managed by the Bureau of the Public Debt.




                                                      7 
 


    Exchange Revenue

    In accordance with Federal Government standards, the TCCUSF classifies its revenues as exchange.
    Exchange revenues arise when a Government entity provides goods and services to the public or to
    another Government entity for a price. Exchange revenue is recognized at the time goods or services
    are provided to the public or another Government entity. Exchange revenue primarily consists of the
    special premium assessments of which the primary purpose is to recover the losses the corporate
    credit union system over time. Special premium assessments are discussed further in notes 3 and 6.

    Accounts Receivable

    The TCCUSF’s accounts receivable have two components, Intragovernmental and Public.
    Intragovernmental accounts receivable from NCUSIF represent special premium assessments to
    federally insured credit unions that were collected by the NCUSIF on behalf of TCCUSF, but not yet
    transferred to the TCCUSF for its use and benefit. Public accounts receivable represent outstanding
    balances of the special premium assessment to federally insured credit unions.

    An allowance for doubtful accounts is the TCCUSF’s best estimate of the amount of credit losses in
    an existing receivable. The allowance is determined on an individual account basis. An account may
    be impaired or written off if it is probable that the TCCUSF will not collect all principal and interest
    contractually due. There was no allowance recognized as of December 31, 2009.

    Income Taxes

    The TCCUSF is exempt from federal income taxes under Section 501(c)(1) of the Internal Revenue
    Code.

    Accrued Interest Payable

    Accrued interest payable represents interest incurred but unpaid on principal owed to the U.S.
    Treasury. Interest is accrued on a monthly basis.

    Debt - Borrowings from U.S. Treasury

    The amount of debt owed and payable by the TCCUSF consists solely of borrowings from the U.S.
    Treasury via the Bureau of the Public Debt, further discussed herein.

    Commitments and Contingencies

    In accordance with Statement of Federal Financial Accounting Standards No. 5, Accounting for
    Liabilities of the Federal Government (SFFAS 5), all federal insurance and guarantee programs,
    except social insurance and loan guarantee programs, should recognize a liability for: a) unpaid
    claims incurred, resulting from insured events that have occurred as of the reporting date; b) plus an
    accrual for a contingent liability when an existing condition, situation, or set of circumstances
    involving uncertainty as to possible loss exists and the uncertainty will ultimately be resolved when
    one or more probable future events occur or fail to occur; and c) a future outflow or other sacrifice of
    resources is probable.

    Liabilities for general loss contingencies arising from claims, assessments, litigation, fines,
    guarantees, and penalties and other sources, are recorded when it is probable that a liability has been
    incurred and the amount of the assessment and/or remediation can be reasonably estimated. Legal
    costs incurred in connection with loss contingencies are expensed as incurred.




                                                     8 
 


2. INVESTMENTS
    Intragovernmental Securities
    as of December 31, 2009
                                                              Amortized
                                                 Amortization (Premium)    Interest    Investments      Other      Market Value
    (Dollars in Thousands)             Cost       Method      Discount    Receivable                 Adjustments    Disclosure

    Non-marketable, par value          343,183       n/a            -           -         343,183            -          343,183
    Total                          $   343,183       n/a        $   -     $     -       $ 343,183    $       -      $   343,183




    Intragovernmental Securities - Non-marketable par value U.S. Treasury securities are issued by the
    Bureau of the Public Debt to Federal accounts and are purchased and redeemed at par exclusively
    through U.S. Treasury’s Federal Investment Branch.

    Loss on Investment – Capital Note

    On June 18, 2009, the NCUA Board took action to transfer to the TCCUSF the $1.0 billion capital
    note from U.S. Central Federal Credit Union; this capital note was originally held by NCUSIF. Due
    to the NCUA’s further understanding of USC’s financial position as of December 31, 2009, which
    included independent valuation analyses, NCUA concluded that an other-than-temporary impairment
    had occurred with the capital note, and, accordingly, recorded an impairment charge, or bad debt
    expense, for the entire value of the capital note.

3. ACCOUNTS RECEIVABLE

    Intragovernmental - Accounts Receivable from NCUSIF

    The NCUSIF collects the special premium assessment on behalf of the TCCUSF. When assessments
    are collected by NCUSIF, the TCCUSF reclassifies the amount from Public Accounts Receivable to
    Accounts Receivable from NCUSIF. When these assessments are transferred from NCUSIF to
    TCCUSF, the Accounts Receivable from NCUSIF decreases. As of December 31, 2009, the NCUSIF
    owed amounts received from the special premium assessments totaling $21.4 million.

    Public - Accounts Receivable from Special Premium Assessment and TCCULGP Fees

    Special Premium Assessment
    The special premium assessment is invoiced to all federally insured credit unions. This assessment is
    allowed under TCCUSF’s statutory authority (FCU Act §217(d)). As of December 31, 2009,
    assessments that have not been received from credit unions totaled $6.0 million.

    TCCULGP Fees
    The TCCUSF guarantees for a fee the timely payment of principal and interest on certain unsecured
    debt of participating corporate credit unions as discussed further herein. The TCCUSF invoices
    participating corporate credit unions on a monthly basis for the guarantee fee. As of December 31,
    2009, guarantee fees that have not been received totaled $1.3 million.

4. DEBT

    On June 25, 2009, the TCCUSF borrowed $1.0 billion dollars from the U.S. Treasury and paid this
    amount to the NCUSIF as a result of NCUA Board actions on June 18, 2009 to transfer to the
    TCCUSF the USC capital note. The NCUA Board originally approved the advance of the capital




                                                           9 
 


    note on January 28, 2009. NCUSIF then advanced $1.0 billion in the form of a capital note to USC
    on January 30, 2009. As of December 31, 2009, TCCUSF owed $1.0 billion with accrued interest of
    $2.6 million. The current interest rate on the note is 0.5 percent, which resets annually.

5. OTHER LIABILITIES - INSURANCE AND GUARANTEE PROGRAM LIABILITIES

    During the period ended December 31, 2009, the TCCUSF was responsible for two initiatives under
    the Corporate Stabilization Program, the TCCULGP and the TCCUSGP.

    Temporary Corporate Credit Union Liquidity Guarantee Program (TCCULGP)

    Under the terms of the TCCULGP, the TCCUSF guarantees for a fee the timely payment of principal
    and interest on certain unsecured debt of participating corporate credit unions. As of December 31,
    2009, the TCCUSF had extended guarantees related to the Credit Union System Investment Program,
    Credit Union Homeowner’s Affordability Relief Program, and Corporate Medium Term Notes.

        Credit Union System Investment Program (SIP) - Under SIP, participating creditworthy credit
        unions borrow from the NCUA Central Liquidity Facility (CLF) and invest the proceeds in
        participating corporate credit unions. Credit unions participating in this program receive a spread
        of 25 basis points. As of December 31, 2009, borrowings of $8.2 billion were subject to
        guarantees under this program. In March 2010, the program ended when all borrowings from
        CLF were repaid primarily from proceeds of the Corporate Medium Term Notes.

        Credit Union Homeowners Affordability Relief Program (HARP) - The HARP is a two-year,
        $2 billion program intended to assist homeowners who are facing foreclosure on their mortgages.
        Under HARP, participating creditworthy credit unions borrow from the CLF and receive as much
        as an additional 100-basis point spread over the cost of borrowing if they modify at-risk
        mortgages, primarily by lowering interest rates and corresponding monthly payments. As of
        December 31, 2009, borrowings of $95.6 million were subject to guarantees under this program.

        Corporate Medium Term Notes - U.S. Central Federal Credit Union and Western Corporate
        Federal Credit Union issued medium term notes, guaranteed by TCCULGP, to the public market.
        The purpose of the notes was to help fund repayment of CLF loans under SIP and HARP. Notes
        valued at $5.5 billion have been issued by participating credit unions and are guaranteed under
        TCCULGP.

    No claims were filed under any of these programs and therefore no direct specific reserve has been
    recorded; however, there were conditions from past events that involve uncertainties with regards to
    possible loss, where such uncertainties are probable to be resolved by future events and are
    measurable, and as discussed below, general reserves have been recognized.

    Temporary Corporate Credit Union Share Guarantee Program (TCCUSGP)

    The TCCUSGP is a guarantee program of shares (excluding paid-in-capital and membership capital
    accounts) at corporate credit unions that began January 28, 2009. The effect of the program is to
    guarantee the entire share account of credit unions that are members of corporate credit unions. On
    March 1, 2009, the guarantee became voluntary when corporate credit unions were provided the
    option to participate in the program. Nearly all corporate credit unions elected to participate. The
    program is set to expire September 30, 2012, but may be extended.




                                                    10 
 


    There have been no claims filed as of December 31, 2009 under this program and therefore no direct
    liability has been recorded.

    As of December 31, 2009, there were conditions from past events that involve uncertainties with
    regards to possible loss pursuant to this program, where such uncertainties are probable to be resolved
    by future events and are measurable.

    Related Reserve for Probable Losses

    NCUA has relied on the valuation and loss exposure results, as determined by an external valuation
    company, in its efforts to estimate the contingent liabilities through the use of an internal model. The
    contingent liabilities have been recorded on the balance sheet as a guarantee liability in the amount of
    $6.4 billion as of December 31, 2009. The credit union system will be assessed for recovery of such
    losses during the life of the TCCUSF.

    At December 31, 2009, the liability for the guarantee related to the TCCULGP has been reflected in
    the loss reserve amount already recorded for the TCCUSGP.

6. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE

    Program costs and revenues are separate between intragovernmental and public to facilitate
    government-wide financial reporting. Intragovernmental revenue and expenses arise from
    transactions with other Federal entities. Public revenue and expenses arise from transactions with
    domestic and foreign persons and organizations outside the U.S. Government. 

    Intragovernmental Costs                 $1.0 Billion      TCCUSGP         TCCULGP              TOTAL
    and Exchange Revenue                    Captial Note
    (Dollars in thousands)
    Intragovernmental costs                 $       2,589 $             -   $           -      $        2,589
    Public costs                                1,000,000         6,365,500             -           7,365,500
       Total                                    1,002,589         6,365,500             -           7,368,089

    Intragovernmental exchange revenue                 (8)              -               -                 (8)
    Public exchange revenue                      (337,301)              -           (34,504)        (371,805)
       Total                                     (337,309)              -           (34,504)        (371,813)


    Net Cost                                $     665,280 $      6,365,500 $        (34,504) $      6,996,276

    $1.0 Billion Capital Note

    The majority of exchange revenue originates from the special premium assessment which is being
    allocated to TCCUSF initiatives based upon the order of borrowing to fund program costs.

    As mentioned herein, TCCUSF received the $1.0 billion capital note due from USC. This action
    made the TCCUSF responsible for managing an intragovernmental relationship with the U.S.
    Treasury and a public relationship with USC.

    Intragovernmental costs represent accrued interest payable amounts to the U.S. Treasury as of
    December 31, 2009 in the amount of $2.6 million. Public costs represent an impairment charge in the




                                                    11 
 


     amount of $1.0 billion dollars due to the write off of the capital note held by USC as of December 31,
     2009, as the note was determined to be impaired and unrecoverable.

     Temporary Corporate Credit Union Share Guarantee Program (TCCUSGP)

     TCCUSGP exchange revenue, if any, originates from the special premium assessment which is being
     allocated to TCCUSF initiatives based upon the order of borrowing to fund program costs.

     As mentioned herein, the TCCUSF was legally obligated for the Corporate Stabilization Program,
     which includes the TCCUSGP.

     As of December 31, 2009, the TCCUSF had estimated that the future liability resulting from the
     guarantee of these corporate shares would be $6.4 billion. As such, this amount reflects the public
     cost incurred by TCCUSF in support of this program. When payments are anticipated to be made,
     TCCUSF expects to fund payments from cash, investment balances, and/or borrowings from the U.S.
     Treasury.

     Temporary Corporate Credit Union Liquidity Guarantee Program

     TCCULGP exchange revenue originates from guarantee fee collections.

     As mentioned herein, the TCCUSF was legally obligated for the Corporate Stabilization Program,
     which includes the TCCULGP.

     The TCCULGP was created in October 2008 to provide a guarantee on certain unsecured debt of
     participating corporate credit unions issued from October 16, 2008, through June 30, 2010, and
     maturing on or before June 30, 2017. The guarantee fee is priced to cover anticipated losses. The
     purpose of the program is to ensure parity with depositories covered by a similar FDIC guarantee
     program and to maintain market place confidence in corporate credit union unsecured debt offerings.

     Exchange revenue reflects public revenue in support of this program. When payments are anticipated
     to be made, TCCUSF expects to fund payments from cash, investment balances, and/or borrowings
     from the U.S. Treasury. Since inception of the program, no claims have been reported. The
     exchange revenue from the program totaled approximately $35 million.

7.   AVAILABLE BORROWING AUTHORITY, END OF PERIOD

     The TCCUSF shares its $6.0 billion borrowing authority with the NCUSIF.


     Available Borrowing Authority, End of Period                                   As of
     (Dollars in thousands)                                                     December 31,
                                                                                   2009
     Borrowing authority                                                        $    6,000,000
     Borrowing authority converted to cash (used by TCCUSF)                         (1,000,000)
     Borrowing authority converted to cash (used by NCUSIF)                                -
        Borrowing authority available for obligations                           $     5,000,000




                                                        12 
 


8. DISCLOSURES RELATED TO THE STATEMENT OF BUDGETARY RESOURCES

    The Statement of Budgetary Resources discloses total budgetary resources available to the TCCUSF
    and the status of resources as of December 31, 2009. Activity impacting budget totals of the overall
    U.S. government budget is recorded in TCCUSF’s Statement of Budgetary Resources budgetary
    accounts. As of December 31, 2009, the fund’s resources in budgetary accounts totaled $6.3 billion.
    All liabilities are covered by budgetary resources. All obligations incurred by TCCUSF are
    reimbursable, meaning that obligations will be ultimately reimbursed from the special premium
    assessment to federally insured credit unions and from other collections. The fund is exempt from
    OMB apportionment control.

    Budgetary resources listed on the fund’s statements and the budgetary resources found in the budget
    of the U.S. government differ because the fund’s statements are prepared as of December 31, 2009,
    rather that as of September 30, 2009, the U.S. government fiscal year end.

9. TERMS OF BORROWING AUTHORITY USED

    On June 23, 2009, NCUA entered into a Memorandum of Understanding with the U.S. Treasury to
    establish the terms and conditions for borrowing from the U.S. Treasury, Bureau of the Public Debt,
    Federal Borrowings Branch. This agreement expires on September 30, 2010, and may be extended.
    Interest is payable annually on the anniversary of the first advance, June 25, 2009. The interest rate
    resets on each anniversary at a rate equal to the average market yield on outstanding marketable
    obligations of the United States with maturities equal to 12 months. The current interest rate on the
    note is 0.5 percent.

10. RECONCILIATION OF NET COST OF OPERATIONS (PROPRIETARY) TO BUDGET

    The Reconciliation of Net Cost of Operations to Budget explains the difference during the period
    ended December 31, 2009 between the budgetary net obligations and the proprietary net cost of
    operations. As of December 31, 2009, the Reconciliation of Net Cost of Operations to Budget
    consisted of the following:
                      Reconciliation of Net Cost of Operations to Budget
                      (Dollars in thousands)

                      Obligated Net Cost Amounts

                      Borrowing authority                                                $     6,000,000
                      Plus spending authority from offsetting collections                        364,534
                         Total budgetary resources                                              6,364,534
                         Less unobligated balances                                             (5,361,945)
                            Total Obligations Incurred                                         1,002,589

                      Costs Included in Net Cost of Operations that do not Require Resources

                      Reserve for TCCUSGP                                                      6,365,500
                      Revenue recognized
                        Interest collected on investments                                             (8)
                        Fee revenue                                                              (34,504)
                        Other revenue                                                           (337,301)
                             Total Costs that do not require resources                         5,993,687

                             Total Net Cost of Operations                                $     6,996,276




                                                                 13 
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




            Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the balance sheet of the National Credit Union Administration Temporary Corporate
Credit Union Stabilization Fund (TCCUSF) as of December 31, 2009 and the related statements of net
cost, and changes in net position, and statement of budgetary resources (hereinafter referred to as “financial
statements”) for the period from May 20, 2009 (inception) to December 31, 2009, and have issued our
report thereon dated July 21, 2010.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the TCCUSF is responsible for establishing and maintaining effective internal control.
In planning and performing our fiscal year 2009 audit, we considered the TCCUSF’s internal control over
financial reporting by obtaining an understanding of the TCCUSF’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements. To achieve this purpose, we did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The objective of our audit was
not to express an opinion on the effectiveness of the TCCUSF’s internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of the TCCUSF’s internal control over
financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and was not designed to identify all deficiencies in the internal control over financial
reporting that might be deficiencies, significant deficiencies, or material weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance. A material weakness is a deficiency, or
combination of deficiencies, in internal control, such that there is a reasonable possibility that a material
misstatement of the entity’s financial statements will not be prevented, or detected and corrected on a
timely basis.




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
National Credit Union Administration Temporary Corporate Credit Union Stabilization Fund
July 21, 2010
Page 2 of 2


In our fiscal year 2009 audit, we did not identify any deficiencies in internal control over financial reporting
that we consider to be material weaknesses, as defined above.

This report is intended solely for the information and use of the addressees, TCCUSF’s management,
OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and
should not be used by anyone other than these specified parties.




July 21, 2010
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General, National Credit Union Administration and
the Board of Directors, National Credit Union Administration:

We have audited the balance sheet of the National Credit Union Administration Temporary Corporate
Credit Union Stabilization Fund (TCCUSF) as of December 31, 2009, and the related statements of net
cost, and changes in net position, and statement of budgetary resources (hereinafter referred to as “financial
statements”) for the period May 20, 2009 (inception) to December 31, 2009, and have issued our report
thereon dated July 21, 2010.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the TCCUSF is responsible for complying with laws, regulations, and contracts
applicable to the TCCUSF. As part of obtaining reasonable assurance about whether the TCCUSF’s
financial statements are free of material misstatement, we performed tests of the TCCUSF’s compliance
with certain provisions of laws, regulations, and contracts, noncompliance with which could have a direct
and material effect on the determination of the financial statement amounts, and certain provisions of other
laws and regulations specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the
provisions described in the preceding sentence, and we did not test compliance with all laws, regulations,
and contracts applicable to the TCCUSF. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the addressees, TCCUSF’s management,
OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and
should not be used by anyone other than these specified parties.




July 21, 2010




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
